<html>
<title> - MARKUP OF VARIOUS MEASURES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                    MARKUP of H. Res. 75, H.R. 739, 
                  H. Res. 156, H.R. 596, and H.R. 295

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 7, 2019

                               __________

                           Serial No. 116-11

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                       
                               __________
                               

                   U.S. GOVERNMENT PUBLISHING OFFICE   
35-369PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f394839cb3908680879b969f83dd909c9edd">[email&#160;protected]</a>                   
   
                 
                       

                      COMMITTEE ON FOREIGN AFFAIRS
                      
 ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, 

Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey 

    
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas                              
                             
                                     
                Jason Steinbaum, Democrat Staff Director

               Brendan Shieds, Republican Staff Director                     
                      
                      
                      
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

                                APPENDIX

Hearing Notice...................................................   106
Hearing Minutes..................................................   107
Hearing Attendance...............................................   108
Prepared statement submitted from Representative Castro..........   109

                             MARKUP SUMMARY

Markup Summary...................................................   111

             ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD

H. Res. 75, Strongly Condemning the January 2019 Terrorist attack 
  on the 14 Riverside Complex in Nairobi, Kenya..................     2
H.R. 739, the Cyber Diplomacy Act of 2019 With the McCaul 
  Amendment......................................................     6
Amendment in the Nature of a Substitute to H.R. 739 Offered by 
  Mr. Mccaul of Texas............................................    35
H. Res. 156 Calling for Accountability and Justice for the 
  Assassination of Boris Nemtsov with the two Malinowski 
  Amendments.....................................................    64
Amendment to H. Res. 156 Offered by Mr. Malinowski of New Jersey 
  (1 of 2 Listed)................................................    72
Amendment to H. Res. 156 Offered by Mr. Malinowski of New Jersey 
  (2 of 2 Listed)................................................    73
H.R. 596, Crimea Annexation Nonrecognition Act with the Connolly 
  Amendment in the Nature of a Substitute........................    74
Amendment in the Nature of a Substitute to H.R. 596 Offered by 
  Mr. Connolly of Virginia.......................................    76
H.R. 295, End Banking for Human Traffickers Act of 2019 with the 
  Engel Amendment in the Nature of a Substitute..................    78
Amendment in the Nature of a Substitute to H.R. 295 Offered by 
  Mr. Engel of New York..........................................    87

 
                       MARKUP OF VARIOUS MEASURES

                        Thursday, March 7, 2019

                           House of Representatives
                       Committee on Foreign Affairs
                                                     Washington, DC

    The committee met, pursuant to notice, at 10:05 a.m., in 
Room 2172 Rayburn House Office Building, Hon. Eliot Engel 
(chairman of the committee) presiding.
    Chairman Engel. So pursuant to notice, we meet today to 
markup five bipartisan measures. Without objection, all members 
may have 5 days to submit statements or extraneous materials on 
today's business.
    As members were notified yesterday, we intend to consider 
today's measures en bloc. The measures are H. Res. 75, strongly 
condemning the January 2019 terrorist attack on the 14 
Riverside Complex in Nairobi, Kenya; H.R. 739, the Cyber 
Diplomacy Act of 2019 with the McCaul Amendment; H. Res. 156 
calling for accountability and justice for the assassination of 
Boris Nemtsov with the two Malinowski Amendments; H.R. 596, 
Crimea Annexation Nonrecognition Act with the Connolly 
Amendment in the nature of a substitute; and H.R. 295, End 
Banking for Human Traffickers Act of 2019 with the Engel 
Amendment in the nature of a substitute.
    [The bills and resolutions offered en bloc follow:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. At this time I recognize myself to speak on 
today's business.
    We have five good measures before us today and I am pleased 
to support them all. The first measure I want to discuss is H. 
Res. 156, a resolution I authored with Ranking Member McCaul 
that calls for justice for the assassination of Boris Nemtsov.
    Nemtsov was a brave advocate for democracy and free 
elections in Russia. Sadly, that put him right in Vladimir 
Putin's cross hairs.
    Now he joins a long list of brave journalists, human rights 
activists, and political opponents murdered by Putin's henchmen 
in their quest to silence all criticism of the Kremlin and 
stamp out any perceived threat to Putin's authoritarian regime.
    This resolution condemns the Kremlin's systematic targeting 
of its political opponents and it calls on the administration 
to implement Magnitsky Act sanctions on those responsible for 
Nemtsov's murder and cover up.
    It also requires the administration to deliver to Congress 
a thorough report on Nemtsov's assassination. That is a 
critical part of this legislation because, sadly, the 
administration has not done nearly enough to give us much 
reason to stand up to Russia and call out Putin's thuggery.
    So it is up to Congress to assert American leadership on 
this issue and Putin's strong arm tactics extend beyond the 
authoritarian rule in his own country. We have seen this all 
too clearly in Russia's malign actions with its neighbors, 
which brings me to our next measure.
    But before I do that, I want to just personally tell you I 
have on my desk in my office a picture of me shaking hands with 
Boris Nemtsov. It is shocking. When we moved offices I saw that 
picture. I had forgotten about it.
    He came and visited me and told me he was the opponent of 
Putin and that he was for free, independent elections and for a 
free Russia.
    I was very, very impressed with him and thought, wow, this 
man is really special. Unfortunately, Putin thought so too and 
had him killed right in Moscow. But I remember him telling me 
about how he felt how important his work was, and I told him 
that I thought he was really working, not for just the people 
in Russia, but for people all over the world.
    So I want to just mention that because it was quite an 
honor for me to meet Boris Nemtsov and, of course, just a few 
months later he was murdered.
    And so it is just startling.
    The Crimea Annexation Nonrecognition Act puts that 
conviction into law by stating that the United States will not 
recognize Russia's claims of sovereignty in Ukraine.
    Putin's disrespect for independent, sovereign democracies 
is something we in the United States know all too well. By 
advancing this legislation we send a clear message to our 
Ukrainian partners and their neighbors. We stand with you. I 
support this bill and I urge my colleagues to do the same.
    And just as an aside, I have been a strong supporter of 
Ukraine being admitted to NATO and I think we should pursue 
that down the road.
    It is critical that we support our partners and allies 
whenever they are under threat and that brings me to our next 
measure, H. Res. 75. I want to thank Mr. McCaul, Ms. Bass, and 
Mr. Smith for joining me in this resolution that strongly 
condemns the January 2019 attack by the terrorist group Al-
Shabaab in Nairobi, Kenya.
    This horrific attack killed dozens of people, including 
American citizen Jason Spindler. Just last week, we saw another 
Al-Shabaab attack in Mogadishu, Somalia, claim the lives of 
nearly 30 people.
    So this resolution rightly affirms that the United States 
supports our regional partners in their ongoing efforts to 
counter terrorism and violent extremism in the Horn of Africa. 
I hope all members will join me in supporting this measure.
    Next, I would like to discuss the End Banking for Human 
Traffickers Act introduced by Mr. Fitzpatrick and Mr. Keating. 
It is horrible that in 2019, we still live in a world where 
human beings are held in slavery. It is a moral outrage.
    So we need to be consistently evaluating our government's 
efforts on this issue and looking for areas where we can 
improve. This bill does just that by having the financial 
industry play a bigger role in tracking down human traffickers.
    By connecting the industry with experts on human 
trafficking, banks and other financial institutions will be 
better equipped to spot suspect financial transactions that may 
be related to this heinous criminal enterprise.
    This bill continues our fight against the scourge of human 
trafficking, and I urge my colleagues to join me in supporting 
it.
    And finally, we turn to Ranking Member McCall's bill, the 
Cyber Diplomacy Act. Last Congress, I worked with Chairman 
Royce on this bill and we got it through this committee, the 
House, and the Senate Foreign Relations Committee with broad 
bipartisan support.
    This Congress, Ranking Member McCaul has taken up that 
mantle and I am pleased to join him as we work to get this bill 
over the finish line and on the president's desk.
    Cyberspace is an increasingly critical part of foreign 
policy and we desperately need to update our government 
agencies to reflect that reality.
    America has significant interest in cybersecurity, the 
digital economy, issues of internet freedom, and we need to be 
engaging with the international community to articulate and 
protect those interests.
    If we do not focus on all of these areas, we run the real 
risk of seeing authoritarian regimes like Russia and China 
playing a bigger role in determining the way the international 
community handles these issues.
    So this bill would create a high-level Ambassador position 
at the State Department dedicated to this endeavor and require 
a comprehensive cyberspace strategy.
    I am frustrated by the lack of progress on this issue at 
the State Department, and I hope they will work with us to 
ensure that this bill becomes law.
    I hope my colleagues will join me in supporting this 
measure.
    Thank you to all of our members for your hard work on these 
good bills before us today. As I said before, I am pleased to 
support them all.
    And now, I recognize the ranking member, Mike McCaul of 
Texas, for his opening remarks.
    Mr. McCaul. Thank you, Mr. Chairman.
    Today, our committee will markup three important bills and 
two resolutions, the Cyber Diplomacy Act, which I introduced 
with you, Mr. Chairman. I want to thank you for working with me 
on that. It takes several steps to support an open and secure 
cyberspace. As chairman of Homeland Security, I elevated the 
mission at the Department of Homeland Security and I intend to 
do the same with you, sir, at the Department of State.
    It establishes an ambassador at large to lead the State's 
cyber diplomacy efforts, outlines an international cyber policy 
to advance democratic principles and reject Russian and Chinese 
attempts to control and censor the internet.
    It requires the State Department to provide assessments 
related to internet freedom, freedoms in other countries, and, 
as you know, Mr. Chairman, malicious cyber activity by State 
and non-State actors threatens our national security and harms 
our economic interests.
    We understand the State Department has plans for a new 
cyber bureau, which varies a little bit from what our bill 
calls for. I pledge to work with the State Department and you, 
Mr. Chairman, and the Senate to find the best path forward to 
advance our shared goals of bolstering and elevating State's 
critical cyber mission.
    I also want to thank Mr. Fitzpatrick and Mr. Keating for 
their bipartisan bill, the End Banking for Human Traffickers 
Act, which will help address the scourge of human trafficking.
    This bill will help choke off traffickers' access to 
financial systems. It is time we put an end to this modern-day 
form of slavery once and for all.
    We are also marking up the Crimea Annexation Nonrecognition 
Act. This bill clearly states that America will not recognize 
Russian sovereignty over Crimea.
    Doing so would condone Russia's belligerent behavior toward 
its neighbors. Vladimir Putin needs to understand that we will 
not tolerate this kind of aggression in Crimea or anywhere else 
in the world.
    And that is also why today's resolution condemning the 
assassination of Boris Nemtsov is also important. We cannot be 
silent when political opponents are targeted for supporting 
democratic reforms.
    I was proud to introduce this resolution with Chairman 
Engel because Putin needs to know that both Democrats and 
Republicans will call out and condemn his authoritarian ways.
    And finally, we must continue to stand united in our fight 
against Islamist terrorism. The terror attack in Nairobi, 
Kenya, on January the 15th that killed 21 people including 
Jason Spindler, a fellow Texan, was a painful reminder that our 
fight against terrorism is a global struggle.
    Our resolution condemns this attack and reaffirms our 
commitment to eradicating this evil.
    I look forward to passing these bills out of committee with 
bipartisan support.
    And, finally, Mr. Chairman, on the floor and in the halls 
of Congress there has been much discussion recently about anti-
Semitism. I want to thank you for your leadership on this issue 
and I look forward to continuing to work with you on measures 
that support our close ally, Israel, and denounce anti-Semitism 
wherever it may be.
    And with that, I yield back the balance of my time.
    Chairman Engel. Thank you, Mr. McCaul.
    Are there any other members seeking recognition?
    Mr. Connolly. Mr. Chairman?
    Chairman Engel. Yes, Mr. Connolly.
    Mr. Connolly. I thank the chair and the ranking member. I 
want to thank them both for putting together this bipartisan 
package of five bills for our consideration today.
    These measures condemn terrorist attacks, strengthen U.S. 
diplomacy, condemn Russia's violations of human rights and 
territorial sovereignty, and bolster U.S. efforts to reduce 
global human trafficking, the scourge of our time.
    In particular, Mr. Chairman, I would like to thank you and 
the ranking member for including in this markup H.R. 596, the 
Crimea Annexation Nonrecognition Act, which I introduced with 
my good friend and Republican colleague, Representative Steve 
Chabot.
    This bill states that it is the policy of the United States 
not to recognize the Russian Federation's claim of sovereignty 
over Crimea, its airspace, or its territorial waters.
    Furthermore, this bill prohibits the U.S. Government from 
taking any action that implies recognition of Russian 
sovereignty over Crimea.
    It has been the longstanding policy of the United States to 
not recognize territorial changes effected by force as dictated 
by the long-ago Stimson Doctrine established in 1932 by then-
Secretary of State Henry Stimson.
    The matter of rejecting the forcible and illegal attack on 
sovereign territory is so important we should be satisfied with 
nothing less than absolute clarity about our position, which is 
one that supports Ukraine sovereignty over its own territory in 
Crimea.
    Failure to stand up, as Mr. McCaul just said, to Putin's 
illegal annexation of Crimea sets a dangerous and irrevocable 
precedent. Crimea was Russia's original violation in Ukraine 
and we have limited credibility objecting to Russia's 
subsequent invasion of the Luhansk and Donetsk if we do not 
take a stand in Crimea.
    Russian occupation of Crimea has inflicted great harm 
within the Ukraine, throughout former Soviet occupied 
territories, and beyond.
    What has happened in Ukraine--Russia's forcible and illegal 
annexation of Crimea, its invasion of Eastern Ukraine, and 
continued occupation in Crimea, Luhansk and Donetsk, has 
precipitated an international crisis and the resulting conflict 
has claimed more than 10,000 lives.
    Russia has subjected Crimeans who refuse Russian 
citizenship to discrimination in accessing education, health 
care, and employment, and Russian authorities have attacked 
travel rights and the free press.
    Acquiesence on the part of the United States threatens the 
security of all sovereign nations. Russia's forcible and 
illegal annexation of Crimea has sent shock waves throughout 
the former Soviet occupied territories, many of whom are now 
NATO allies, including the Baltic States.
    After the Welles Declaration in June 1940, the U.S. refused 
to recognize the Soviet Union's de facto or de jure sovereignty 
over the Baltics during the Soviet Union's 50 years of illegal 
occupation.
    The Baltic Republics eventually received their independence 
and they are now reliable NATO allies, in part because of our 
steadfastness.
    We first introduced this bill in the wake of Russia's 
forcible and illegal annexation in 2014. This committee 
previously passed this legislation in the 113th Congress.
    I inserted similar language into the Fiscal Year 2016 
National Defense Authorization Act in order to prohibit the use 
of defense funds in a manner that recognizes Russian 
sovereignty over Crimea. That is to say that we did not.
    That language has remained in the NDAA, I am grateful to 
say, every year since. I have also successfully authored an 
amendment to Stand For Ukraine Act, which would create only one 
condition under which the president can relax Crimea-related 
sanctions--the restoration of Ukraine sovereignty.
    The United States must lead the way in refusing to 
recognize or legitimize Russia's illegal and forcible 
annexation in Crimea. That is why both Mr. Chabot and I are 
glad to offer this bill, which expresses the will of Congress 
as a loud and declarative voice for sovereignty and freedom and 
I urge my colleagues to support it.
    And, again, I thank the chair and ranking member for 
including it in today's markup. I yield back.
    Chairman Engel. Thank you very much, Mr. Connolly.
    Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman.
    Chairman, I strongly support your resolution, H. Res. 156, 
calling for accountability and justice for the assassination of 
Boris Nemtsov, a Russian patriot killed in 2015, a great 
defender of democracy in his home country of Russia.
    Last July, I had the privilege of leading the United States 
delegation to the OSCE Parliamentary Assembly in Berlin and I 
actually chaired the public event that you reference in your 
resolution, the July 8th public event, and we featured Hanna 
Nemtsova, Boris Nemtsov's daughter, who was absolutely 
compelling and brave and full of courage.
    Boris's friend and colleague, Vladimir Kara-Murza, who 
serves as chairman of the board of trustees for the Boris 
Nemtsov Foundation for Freedom, and Vadim Prokhorov, who is a 
lawyer for the Nemtsov family.
    I believe that this resolution is a timely followup to that 
OSCE effort because we have been calling on the administration 
to do more and I think the fact that you articulate the concern 
and the need, frankly, to do some better reporting and to hold 
those responsible besides the five low-level individuals who 
have been tried--who ordered the hit.
    It was an assassination, and it seems to me that it is 
time, frankly, to really impose Magnitsky sanctions on those 
who are directly responsible for this. But we need that 
information. We need our government to redouble down. So thank 
you for that resolution.
    Second, I do want to thank you for marking up H.R. 295, the 
End Banking for Human Traffickers Act of 2019. This is 
authored, of course, by my good friend and colleague, Mr. 
Fitzpatrick.
    This bill will help ensure that human traffickers find 
trafficking even more unprofitable because they will be curbed 
in their financial work that they do. They often use banks. 
This helps to increase that net to catch these people.
    We have been making strides, Mr. Chairman, in this 
direction. For example, last Congress the Frederick Douglass 
Trafficking Victims Prevention and Protection Reauthorization 
Act, which I authored along with my friend and colleague, Karen 
Bass, the prime Democratic co-sponsor, was signed into law on 
January 8th, and among its many provisions, it added the 
secretary of the Treasury to the President's Inter-Agency Task 
Force to monitor and combat trafficking in persons.
    H.R. 295 calls on the task force to evaluate the anti-money 
laundering efforts of the U.S. Government and U.S. financial 
institutions to see if we are doing enough, and I do not think 
we are, to recognize and act against financial movements to 
signal red flags that human trafficking is occurring.
    The task force will consult with trafficking survivors and 
the financial industry representatives who have been pioneering 
anti-trafficking efforts in their best practices.
    So, again, I want to thank you for all of these bills. I 
think they are all excellent pieces of legislation and I 
especially want to thank Mr. Fitzpatrick for his leadership on 
combatting the scourge of human trafficking.
    Chairman Engel. Thank you, Mr. Smith.
    Is there anyone else who seeks recognition?
    Mr. Chabot. Mr. Chairman? Mr. Chairman?
    Chairman Engel. Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman. Move to strike the 
last word.
    Mr. Chairman, I want to thank you for holding this markup 
today, and I want to thank you for this slate of five excellent 
bipartisan bills.
    First, Ukraine--I am honored to be the lead Republican co-
sponsor of H.R. 596, Mr. Connolly's Crimean Annexation 
Nonrecognition Act, and I want to thank him for his hard work 
on this important legislation.
    We have been working together on this since the bully Putin 
first acted on Crimea. I know a number of members of this 
committee have done so and I think it is critical that we 
continue to do so. So I want to thank Mr. Connolly for his hard 
work on this.
    Passage of this bill would cement firmly in place the 
policy that the United States will not recognize Putin's bogus 
claims over Crimea and will prohibit any part of our government 
from taking any action that would imply our recognition of 
Russian sovereignty over the peninsula.
    It is vitally important that we support a democratic and 
unified Ukraine by not giving in to Putin's thuggish behavior 
and that behavior continues.
    For example, in November, Russian vessels blockaded the 
Kerch Strait, the entrance to the Sea of Azov, and illegally 
seized Ukrainian naval vessels.
    By these and other actions, Putin is seeking to strangle 
Ukraine's trade and in all likelihood annex more of it. We 
cannot let that happen. The world cannot stand by as it did 
previously when Putin annexed Crimea.
    Unfortunately, Putin's gangster ways are not confined to 
his foreign policy. That is why we are considering H. Res. 156, 
which I am also a co-sponsor of. This resolution calls for 
justice for Boris Nemtsov, who, as was mentioned, was murdered 
in cold blood near the Kremlin on February 25th of 2015.
    For those who do not know, Mr. Nemtsov was a leading 
opposition figure, outspoken Putin critic, and the former first 
deputy prime minister of Russia and was in all likelihood--we 
do not know for absolutely sure--but in all likelihood was 
executed at the direction of Putin.
    The Russian government must do a thorough investigation to 
uncover the truth behind Mr. Nemtsov--that we should not let 
this rest.
    I also want to turn briefly to a couple of other bills we 
have. The terrorist attack on Kenya earlier this year is yet 
another example of the scourge of radical terrorism and we must 
continue to fight against that every time it rears its ugly 
head.
    That is why I am a co-sponsor of H. Res. 75. And finally, I 
want to thank Ranking Member McCaul for his leadership on the 
critical issue of Cybersecurity.
    As a co-sponsor of the Cyber Diplomacy Act, I think it is 
necessary that we work with our like-minded allies to ensure 
that the internet remains a place of robust debate and access 
to uncensored information.
    This legislation provides the State Department tools and 
direction to help accomplish this important priority, and I 
want to echo the words that our ranking member mentioned 
before--Mr. McCaul.
    I completely agree with him that there is absolutely no 
place for anti-Semitism in this country, on this globe, or in 
this committee. I have been on this committee for a long time--
23 years--and we have always been bipartisan on that issue. I 
would hope that would continue.
    Israel is a strong ally of the United States. The Jewish 
people have been for a long time and will continue to be, 
whether it is as a nation or whether as a people, and there is 
absolutely no room for anti-Semitism.
    And I think that we should work on that in a bipartisan 
manner, and it always has been that way. I hope it will be in 
the future. There is absolutely no place for anti-Semitism.
    Thank you, Mr. Chairman.
    Chairman Engel. Thank you very much, Mr. Chabot.
    Mr. Malinowski.
    Mr. Malinowski. Thank you. Thank you so much, Chairman 
Engel, Ranking Member McCaul.
    I wanted to say a few words in particular about the 
resolution regarding Boris Nemtsov and to explain the two small 
amendments that I will be offering today.
    First of all, thank you for introducing this resolution to 
help us remember this very good man and to put the Putin regime 
on notice that we are not going to forget what happened and who 
is responsible.
    If you read the resolution, you will see that one of the 
central villains in this terrible story is Ramzan Kadyrov, the 
strong man who rules and has ruled Chechnya with an iron hand 
for many, many years.
    Even the flawed Russian investigation of the murder of Mr. 
Nemtsov determined that the murder was carried out by members 
of an elite battalion loyal to Kadyrov.
    Kadyrov publicly praised the gunmen. Previously, he had 
publicly called for the death of Nemtsov. One of the chief 
suspects is still living at large in Chechnya under Kadyrov's 
protection.
    Kadyrov has also, over the years, been credibly accused of 
murdering human rights activists, journalists. He has ordered 
his police forces to round up and torture gay men and women in 
Chechnya. He has ordered the assassination of his critics 
living in other countries, in Europe, and in the Middle East.
    In 2017, the U.S. Government put Mr. Kadyrov on the Global 
Magnitsky sanctions list, which means that his business 
activities overseas involving any sort of transactions through 
international banks should be blocked.
    In reality, though, Mr. Kadyrov has repeatedly shown 
himself outside of Russia, particularly in Persian Gulf 
countries such as the UAE and Saudi Arabia.
    His hobby is horse racing. He spends millions of dollars 
purchasing race horses, winning races around the world, again, 
particularly in the Middle East.
    He is blocked in Europe. What my first amendment does is 
simply to urge the administration to prioritize sanctions-
enforcement with respect to Ramzan Kadyrov, to investigate his 
business activities and that of entities he may control outside 
of the Russian federation and to determine whether any of them 
might implicate the sanctions that we have imposed.
    The second amendment ensures that the resolution includes 
an additional key suspect in Mr. Nemtsov's murder, Adam 
Delimkhanov, who is a notorious associate and relative of 
Ramzan Kadyrov.
    Delimkhanov is a member of the Russian State Duma where he 
has abused his immunity to shield himself from accountability 
for a range of human rights abuses.
    He has been identified by multiple independent sources as 
one of the organizers of Mr. Nemtsov's murder. So this 
amendment would add his name to the list of suspects in two 
clauses of the resolution's preamble.
    I ask my colleagues to support both of these amendments. 
Thank you very much.
    Chairman Engel. Thank you, Mr. Malinowski.
    Mr. Fitzpatrick.
    Mr. Fitzpatrick. Thank you, Mr. Chairman.
    Chairman, Ranking Member, I really do appreciate your 
considering of H.R. 295. As an FBI agent, one of the most 
horrific crimes that we were called upon to investigate was 
human trafficking, and human trafficking continues to devastate 
millions of lives around the world.
    And this criminal conduct may seem a distant problem but it 
is far from it. It exists right in all of our back yards, in 
every single congressional district in this country, in all of 
our communities, and at times it is right in front of us and we 
do not even know it exists.
    My legislation, H.R. 295, the End Banking of Human 
Traffickers Act, is one step we can take to end the suffering 
caused by human trafficking.
    Traffickers are not hiding their illegal profits under a 
mattress or burying them in their back yard. They use our very 
sophisticated global financial system to launder their illicit 
funds through banks, credit card companies, and money transfer 
companies, which are all used by traffickers to facilitate 
their business and to perpetuate their exploitation of victims.
    The scale of profits from this illicit trade is really 
staggering. The International Labor Organization estimates that 
over $150 billion in illegal profits are made from forced labor 
each year, and $99 billion are earned through the exploitation 
of victims of sexual exploitation, making human trafficking the 
third most lucrative criminal enterprise on this planet.
    The perpetrators of this exploitation play on the 
defenseless in our society, including young children. Cutting 
off their access to the banking system is a critical aspect 
both from the investigative standpoint, and the legislative 
standpoint and I am proud to push this bipartisan bill with my 
friend and colleague, Congressman Keating, to continue working 
to end this horror once and for all.
    And I thank my colleagues both on and off this committee 
for their support, many of whom have joined this effort. I also 
want to thank Congressman Chris Smith from New Jersey, who has 
made it one of his top priorities to advance this mission.
    This legislation directs Federal banking regulators to work 
with law enforcement and financial institutions to combat the 
use of the financial system for human trafficking.
    The bill further increases collaboration between law 
enforcement and experts in financial crimes by adding financial 
intelligence and regulatory officers to the President's Inter-
Agency Task Force to monitor and combat trafficking in persons 
and requires the task force to develop recommendations for 
Congress and regulators that would strengthen anti-money 
laundering programs to better target human trafficking.
    Moreover, this bill allows advocates of human trafficking 
victims to serve as stakeholders and to provide feedback to the 
U.S. Treasury and, additionally, clarifies that banks not 
restrict trafficker victims' access to bank accounts.
    I urge ever Member of Congress, especially those on this 
committee, to support this legislation, which passed both the 
committee and the House last Congress with broad bipartisan 
support.
    We must do everything possible to put an end to human 
trafficking and this legislation is a very important step along 
that path.
    Mr. Chairman, I yield back.
    Chairman Engel. Thank you, Mr. Fitzpatrick.
    Is there anyone else who seeks recognition?
    OK. Hearing no further requests for recognition, then 
without objection the committee will proceed to consider the 
noticed items en bloc. A reporting quorum is present.
    Without objection, the question occurs on the measures en 
bloc as amended.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the chair, the ayes have it.
    The measures considered en bloc are agreed to and without 
objection each measure in the en bloc is ordered favorably 
reported as amended and each amendment to each bill shall be 
reported as a single amendment in the nature of a substitute.
    Without objection, staff is authorized to make any 
technical and conforming changes and the chair is authorized to 
seek House consideration under suspension of the rules.
    This concludes----
    Mr. McCaul. Mr. Chairman?
    Chairman Engel. Yes, Mr. McCaul.
    Mr. McCaul. Pursuant to House rules, I request that members 
have the opportunity to submit views for any committee report 
that may be produced on any of today's measures.
    Chairman Engel. Obviously, there is no objection to that 
and I thank Ranking Member McCaul and all of the committee 
members for their contribution and assistance with today's 
markup.
    The committee stands adjourned.
    [Whereupon, at 10:37 a.m., the committee was adjourned.]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
